AUDIT OF FINANCIAL CONTROLS FOR
  COST ACCOUNTING AND BILLING
   PRACTICES, VOLPE NATIONAL
TRANSPORTATION SYSTEMS CENTER
 Research and Special Programs Administration

       Report Number: FI-2004-076
       Date Issued: August 4, 2004
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Audit of Financial Controls for Cost                Date:    August 4, 2004
           Accounting and Billing Practices, Volpe National
           Transportation Systems Center
           Research and Special Programs Administration
           FI-2004-076

  From:    Alexis M. Stefani                                        Reply to
                                                                    Attn. of:   JA-20
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Deputy Administrator, Research and Special
            Programs Administration

           This report presents the results of our review of the John A. Volpe National
           Transportation Systems Center’s (Volpe) system for tracking and reporting project
           costs. Volpe, located in Cambridge, MA, is part of the Department of
           Transportation’s (DOT) Research and Special Programs Administration (RSPA).
           It was established in 1970 to provide analytical, scientific, and engineering support
           to DOT. Volpe currently employs approximately 550 Federal employees and 900
           contractor employees, 450 of whom are on-site.

           Volpe does not receive direct appropriations from Congress. Rather, Volpe
           receives funds from its customers on a fee-for-service basis. Federal customers
           advance spending authority through inter-service support agreements. For fiscal
           year (FY) 2003, Volpe received $232 million in funding, with $229 million
           coming from Federal customers, including $149 million from DOT customers.
           The Federal Aviation Administration provided about half of the DOT funding.

           Because Volpe operates on a fee-for-service basis and thereby charges all of its
           work to its customers, it is imperative that it have a cost accounting and financial
           reporting system to collect costs by project and charge them to customers
           accurately. Project cost accounting systems are used to accumulate actual total
           direct costs by cost element (e.g., labor, materials) for all work in an organization.
           The systems assign the costs to the appropriate time period and individual project
           and normally provide monthly cost summaries for use in billing customers. Cost
           accounting systems also distribute indirect costs (overhead) to projects based on
                                                                                     2


an acceptable allocation method. Indirect costs generally comprise normal
operating expenses such as rent and utilities that benefit all projects but cannot be
readily charged to any specific project. The allocation method should result in all
projects receiving a fair share of indirect costs.

The objective of this review was to evaluate Volpe’s FY 2002 operations to
determine that the revenues and costs, accumulated by project and funded by
various agencies, are accurately reflected in the accounting records. As part of
this objective, we evaluated whether Volpe’s overhead rate development and
implementation, including its method of distributing overhead costs to projects,
were in accordance with generally accepted accounting principles, which
incorporate Federal accounting standards. O’Connor & Drew P.C. assisted us by
performing agreed-upon procedures on Volpe’s FY 2002 financial operations.
Their findings are included in Appendix II of this report. We expanded the audit
to cover FY 2003 financial operations because in May 2003, Volpe implemented
DOT’s new Delphi financial management system, which includes cost accounting.
We performed this audit in accordance with Government Auditing Standards. Our
audit objective, scope, and methodology are presented in Exhibit A.


RESULTS IN BRIEF
During FYs 2002 and 2003, Volpe recorded actual direct costs such as labor and
acquisitions (contracts) and assigned them to projects appropriately. However, the
treatment of indirect costs during both FYs 2002 and 2003 did not comply with
generally accepted accounting principles. Volpe recorded $2.31 million of
FY 2003 overhead costs in the year obligated, FY 2002, rather than the year the
costs were actually incurred, FY 2003. This resulted in an increase in FY 2002
overhead costs for all projects worked in FY 2002. Shifting these costs from
FY 2003 to FY 2002 resulted in overcharging FY 2002 projects and undercharging
FY 2003 projects. Volpe has also not implemented formal policies and procedures
to guide staff in project cost accounting issues.

During FY 2002 and until May of 2003, Volpe’s system provided four financial
status reports to its customers’ finance offices. The financial status reports
provided reasonably detailed information on the status of authorizations, advances,
commitments, obligations, accrued expenditures, and disbursements. They also
provided actual costs of projects, but the reports did not identify the actual costs of
individual cost elements such as labor and materials.

After converting to DOT’s new Delphi financial management system in May
2003, Volpe’s reporting capability was adversely affected. The financial status
reports, which had been generated under the old financial management and cost
accounting systems, are no longer available and accordingly cannot be given to
                                                                                   3


customers. Volpe and the Oklahoma City Delphi Team have been working to
improve the reports being generated from Delphi. We recommend a series of
actions to correct the accounting system deficiencies, improve reporting
capabilities, and implement policies and procedures. RSPA agreed with the report
recommendations and provided planned actions for implementing each
recommendation.


FINDING AND RECOMMENDATIONS
Overhead Costs Were Not Assigned to the Proper Year
Prior to implementing Delphi in May of 2003, Volpe used the Financial Status of
Programs (FSOP) cost accounting system, interfaced with the Departmental
Accounting and Financial Information System financial management system, for
cost accounting and related financial reporting. During this time, the cost
accounting system properly assigned direct costs, such as labor and contract
charges, to projects. After conversion to the Delphi system, Volpe continued to
properly assign direct costs to projects.

In contrast, the treatment of overhead costs during both FYs 2002 and 2003 did
not comply with generally accepted accounting principles. When FY 2002 actual
overhead costs were lower than amounts charged to customers, Volpe assigned
future (FY 2003) overhead costs related to service contracts as current year
(FY 2002) actual costs. This resulted in customers being overcharged in FY 2002
by $2.31 million (7 percent of the total FY 2003 overhead pool), the amount of
FY 2003 service contracts costs included in FY 2002 overhead.

Volpe charged expected future costs to the current year by counting obligations as
expenses. Obligations are liabilities to pay an amount at a future date, rather than
costs that have actually been incurred. Generally accepted accounting principles
require that managerial cost accounting systems not charge costs to a project until
the costs have actually been incurred, a practice referred to as the accrual basis of
accounting.

At the end of FY 2002, Volpe recognized expenses in the cost accounting system
before they were incurred. Volpe shifted $2.31 million of costs expected to be
incurred in FY 2003 overhead to FY 2002 overhead. The $2.31 million consisted
mainly of obligations associated with various service contracts, including
maintenance, delivery, mailroom, office supplies, accounting, and security
services. Volpe representatives explained this practice is not done every year but
is part of their fiscal year-end review process. If the actual overhead rates are
significantly lower than the budgeted and billed rates, Volpe includes obligations
in that year’s overhead costs. Volpe officials stated that the decision to count
                                                                                 4


obligations as FY 2002 overhead costs was based on an informed management
decision and is done to keep the actual overhead rate from fluctuating each year.

To justify its decision to include obligations in FY 2002 overhead costs, Volpe
cited a procurement change in the Federal Acquisition Streamlining Act (FASA)
that provided that annual service contracts crossing 2 fiscal years may be fully
obligated in the first fiscal year. However, the FASA change did not address or
change generally accepted accounting principles, which require that the cost
accounting system charge costs to the proper project and cost element in the year
the costs are actually incurred.

Volpe’s practice of including obligations in the current fiscal year’s overhead
costs does not comply with generally accepted accounting principles, which
include Statements of Federal Financial Accounting Standards (SFFAS). SFFAS
Number 4, “Managerial Cost Accounting Standards,” states that the cost of an
output (project) is the cost of resources consumed. Resources are not consumed
until the services are delivered (FY 2003 in this case). Similarly, SFFAS
Number 1, “Accounting for Selected Assets and Liabilities,” states that liabilities
should be recorded when services are provided or goods are delivered, rather than
when obligated. The Financial Accounting Standards Board Statement of
Concepts Number 6, “Elements of Financial Statements,” defines expense in a
similar manner.

Volpe officials also told us that there is no material effect associated with its
practice of counting obligations as expenses because most customers’ projects
cover more than 1 fiscal year. Essentially, by expensing obligations in FY 2002,
Volpe is reducing expenses in FY 2003, the time period when the expense is
actually expected to be incurred. Thus, Volpe believes that customers would
benefit in FY 2003, since Volpe will not record any expense for the $2.31 million
in obligations when the services are delivered in FY 2003. We do not agree that
this practice has no effect because individual customers could be materially
overcharged if their projects were completed in FY 2002 or if the effort associated
with their projects was greater in FY 2002 than FY 2003.

To account properly, Volpe should have reduced the amounts that it charged
customers in FY 2002 due to the overestimated overhead rate and returned the
funds to customers. Because this was not done, Volpe should adjust the FY 2002
and FY 2003 overhead rates to actual rates and adjust customers’ accounts.

In the future, allocated overhead rates should be adjusted to actual rates, and
customer accounts should be adjusted appropriately at the end of the year.
Additionally, the allocated overhead rate should be adjusted before the end of the
year if during the year Volpe determines that the actual rate will be significantly
lower than the budgeted rate at the end of the year. Early adjustments would
                                                                                 5


provide certain customers with sufficient time to use freed-up funds for other
operating needs.


Information Provided to Customers and Internal Users Is
Inadequate
SFFAS Number 4 requires agencies to design managerial cost accounting reports
to consider the needs of both external users, such as Volpe’s customers, and
internal users, such as Volpe project managers. SFFAS Number 4 also requires
that agencies accumulate and report the actual costs of projects and activities and
the composition of those costs.

During FY 2002, Volpe was able to satisfy most needs of customers and project
managers.     However, upon converting to Delphi (DOT’s new financial
management system) and the Oracle Projects cost accounting module in May
2003, much of the existing reporting capability was lost. Volpe is gradually
regaining its reporting capability, but the process has been costly, requiring the
assistance of the Oklahoma City Oracle Delphi consultants. Volpe still lacks
much of the information available in financial reports issued routinely prior to
converting to Delphi.


Efforts To Meet Customers’ Information Needs
Volpe’s customers are DOT and other Federal agencies. Volpe does not routinely
send bills to customers because the Federal customers fund their projects in
advance. Accordingly, Volpe’s customers need financial reports that provide cost
and budget information for individual projects and in total. Cost information
needed includes cost incurred by project and by cost element such as labor,
material, and travel. Budget information includes amounts authorized, committed,
and obligated by project and appropriation. This cost and budget information
helps customers understand how their funds are being used and identify remaining
funds and obligations available to complete their projects.

Before converting to Delphi, Volpe used the FSOP cost accounting system and
periodically provided four financial status reports to customer finance offices.
These reports provided reasonably detailed information on the total costs of
projects. The reports also provided detailed information on amounts funded,
committed, and obligated by project and appropriation. However, customer
reports could be confusing and were not user friendly. For example, customers
needed to review separate reports to identify current year project costs and
inception-to-date project costs. Also, none of the reports identified the cost
elements making up the total project costs.
                                                                                  6


After Volpe converted to Dephi and Oracle Projects in May 2003, most reporting
capability was lost, and customers’ finance offices no longer receive regular
financial status reports. The Volpe Financial Management staff worked with an
Oracle consultant to develop an interim work-around to provide monthly reports
for Volpe project managers that the project managers share with their customers.
Prior to April 2004, these reports did not contain incurred cost information; they
contained only budget information. Volpe was able to piece together through
various data extracts a one-line summary per project of customer advances and
Volpe revenue and accounts receivable at September 30, 2003. This information
was sent to customers for use in preparing their annual financial statement.


Efforts To Meet Volpe Project Managers’ Information Needs
Volpe project managers need access to a cost accounting system capable of
identifying actual costs by project, both in total and by cost element. They also
need access to the system to enable them to obtain information on individual
transactions so they can analyze and control costs on their projects. Finally, they
need budget information to help them identify remaining funds available to
complete projects within budget.

Prior to converting to Delphi, Volpe project managers received monthly project
status reports from the FSOP cost accounting system and had access to Volpe’s
Executive Information System (EIS) from their desktops. The EIS provided
project managers with direct on-line access to the information available in the
FSOP cost accounting system. The project status reports and EIS access provided
information on budget, commitments, and obligations by project, task, and cost
element. The EIS also gave project managers the capability to examine individual
commitment and obligation transactions, such as contracts and requisitions. Volpe
project managers, however, were not provided access to actual cost information.

After converting to Delphi, Volpe lost much of the capability to provide project
information to its project managers. With the assistance of an Oracle consultant,
Volpe did develop a work-around report for its project managers that shows
budget, commitments, and obligations by project, task, and cost element. It did
not show actual costs. Volpe developed the ability to report on actual project costs
on a monthly basis in April 2004. However, Volpe project managers are no longer
able to access any information from their desktops, and they lost the ability to
obtain information on individual transactions.


Efforts to Generate Reporting Information in Delphi
With design input from Volpe and a cost to date of about $300,000, the Delphi
support staff in Oklahoma City is developing project status reports for Volpe that
                                                                                  7


are expected to replicate most of the information in the previous four FSOP
reports that were provided to customers’ finance offices and the previous reports
that were provided to Volpe project managers. According to the Oklahoma City
Delphi staff, development of these reports has been complicated and delayed by
the effort to make Delphi reports look like the prior reports, rather than using the
standard reporting capabilities built into the Delphi system. These Delphi reports
are currently being tested by Volpe. Although progress is being made, the reports
still contain errors.

Delphi has a number of standard reports that would provide project managers with
much but not all of the information currently needed by customers and project
managers. However, Volpe project managers do not have access to the standard
reports. The Oklahoma City Delphi staff will allow access to the standard reports,
as well as to other reports currently being developed, using report-generating
software. After appropriate training, Volpe financial managers and individual
project managers would be able to access reports via the internet to get the
information they need when and in the format they need it. However, Volpe
management has not approved providing this access to Volpe project managers.
Volpe should approve access and provide the necessary training.

Written Policies and Procedures Needed
Volpe has informal processes that the staff follows to monitor and control
overhead rates, year-end overhead rate development, and year-end adjustment of
overhead rates from billed to actual. For example, indirect transactions and
associated overhead rates are monitored, and analyses are performed by the
assigned analysts after the close of every month. However, there is no formal
financial policy and no procedures manual for the staff to use. According to
Volpe’s Financial Management Division manager, the staff position responsible
for development of these policies and procedures has never been filled.

Federal cost accounting standards provide that all managerial cost accounting
activities, processes, and procedures should be documented by a manual,
handbook, or guidebook of applicable accounting operations. This reference
should outline the applicable activities, provide instructions for procedures and
practices, list cost accounts, and contain examples of forms and other documents
used. Lack of such a reference makes it more time consuming and difficult to
perform and support actions such as overhead rate development and adjustment
and makes it more difficult for new or substitute employees to perform duties in
case of turnover or absence. To operate as an efficient organization, Volpe should
develop a policies and procedures manual for its cost accounting system.
                                                                              8



RECOMMENDATIONS
We recommend that the Deputy Administrator of the Research and Special
Programs Administration direct that the Acting Deputy Director of Volpe:

  1. Implement a corrective action plan with milestones to:

     a) Utilize the accrual basis of accounting for the cost accounting and
        financial management systems and discontinue including subsequent
        year’s costs in the prior year’s overhead pools.

     b) Compute the effect of including obligations in overhead costs for
        FYs 2002 and 2003 on costs charged to customers. This includes
        removing the $2.31 million from the FY 2002 indirect cost pools,
        including the actual costs incurred in FY 2003 in the FY 2003 indirect
        cost pools, and then re-computing overhead rates for both years. Volpe
        then must appropriately reimburse excess overhead charged to
        customers.

     c) Develop and implement policies and a procedures manual for all
        managerial cost accounting activities, processes, and procedures.

  2. Work with the Office of Financial Management, the Office of the Secretary
     of Transportation, and the Oklahoma City Delphi Team to implement a
     corrective action plan with milestones to:

     a) Identify and develop reporting requirements that ensure that project
        status reports and financial status reports comply with SFFAS Number 4
        and provide sufficient information so users can clearly understand the
        basis for the amounts charged. Customer reports should identify actual
        costs, in total and by cost element.

     b) Determine whether standard or ad hoc Delphi reporting capabilities can
        meet these requirements and develop the appropriate reports.

     c) Ensure Volpe’s project managers, financial managers, and staff are
        provided the necessary training and granted appropriate access to Delphi
        so they can extract standard and ad hoc reports via the internet and
        obtain the financial status of projects when and in the format they need
        it.
                                                                                  9


MANAGEMENT COMMENTS AND OIG RESPONSE
A draft of this report was provided to the RSPA Deputy Administrator on June 10,
2004. The Deputy Administrator provided a written response on July 19, 2004,
agreeing with our recommendations and providing the following comments. A
copy of RSPA’s reply is contained in Appendix I.

In response to our draft report, the Deputy Administrator expressed complete
agreement with our opening observation “Because Volpe operates on a fee-for-
service basis and thereby charges all of its work to its customers, it is imperative
that it have a cost accounting and financial reporting system to collect costs by
project and charge them to customers accurately.” The Deputy Administrator is
confident that implementation of the following actions in response to the Draft
Report’s recommendations will further assure Volpe customers and stakeholders
alike that Volpe’s overall financial practices are sound.

Specific comments by the Deputy Administrator and RSPA/Volpe planned actions
on our recommendations are provided below.

Recommendation 1(a): RSPA concurred. Volpe’s goal is to implement this
recommendation and change from its prior practice of obligation-based accounting
to accrual-based accounting in August 2004 for application to all FY 2004 and
future transactions. Volpe Center financial staff has already initiated discussions
with the Oklahoma City (OKC) Delphi Team. If the necessary changes in Delphi
cannot be made by the end of August 2004, rather than jeopardize accurate fiscal
year-end financial statements and a clean audit opinion for DOT, Volpe will defer
the changes until FY 2005 and make any retroactive adjustments related to
FY 2004 in FY 2005.

OIG Response: RSPA’s planned actions are responsive to the intent of our
recommendation.

Recommendation 1(b):            RSPA concurred.        Volpe has discussed this
recommendation with the OKC Delphi Team and submitted a formal request for
the necessary financial data from Delphi. When this request is prioritized in the
next Delphi Reports User Group meeting in July and an estimated completion date
is assigned, Volpe will prepare and supply to the OIG a corrective action plan to
reallocate the identified indirect costs from FY 2002 to FY 2003.

OIG Response: Although Volpe agrees with the recommendation, their response
does not indicate whether or not it intends to reimburse excess overhead charged
to customers after it re-computes overhead rates for each year. Therefore we are
requesting that RSPA provide more details on the specific actions Volpe will take
to adjust customer’s accounts or otherwise reimburse customers that were
                                                                               10


overbilled. Additionally, we would appreciate receiving a copy of the corrective
action plan for completing the recommended action.

OIG Recommendation 1(c): RSPA agrees that a procedures manual would be
beneficial, and Volpe will develop one. Within 60 days of official issuance of the
soon-to-be-released DOT Financial Management Policies Handbook, Volpe will
begin developing a procedures manual that conforms to the DOT policies. In the
interim, Volpe will begin formal documentation of the routines used to facilitate
Delphi’s calculation of FY 2004 indirect rates.

OIG Response: RSPA’s planned actions are responsive to the intent of our
recommendation.

OIG Recommendation 2(a): RSPA concurred. Volpe will continue to work
with the OKC Delphi Team and OST’s Office of Financial Management to
complete the core financial status and project status reports currently under
development. These reports will comply with SFFAS Number 4. On completion
of the reports and Volpe remedial actions in response to the Draft Report, Volpe
will hold customer information meetings in Washington, DC, on the Volpe
Working Capital Fund, General Working Agreement, Reimbursable Agreement,
cash advance processes, and customer reports. Volpe also plans to offer customers
one-on-one meetings to review project data needs.

OIG Response: RSPA’s planned actions are responsive to the intent of our
recommendation. We request that RSPA provide us with a timeframe for
completing the planned actions.

OIG Recommendation 2(b): RSPA concurred. Volpe informed the OKC Delphi
Team of the complete information needed in the reports 3 years ago when Delphi
was first introduced. Since then the OKC Delphi Team has intermittently worked
on this challenge. RSPA/Volpe believe the OIG recommendation may help raise
the OKC Delphi Team priority for completion of these reports.

OIG Response: RSPA’s planned actions are responsive to the intent of our
recommendation. We request that RSPA provide us with an estimated date for
completing the reports.

OIG Recommendation 2(c): RSPA concurred. Volpe is implementing a new
business information system that will provide project mangers with easy access to
project financial and project management data. This system will use Delphi
financial data, milestones, project deliverables, performance indicators and other
critical data to support Earned Value Management and other tools for managing
complex projects.
                                                                             11


OIG Response: RSPA’s planned actions are responsive to the intent of our
recommendation. We request that RSPA provide us with an estimated date for
completing the business information system.

The complete text of management comments is in Appendix I.


ACTION REQUIRED
Actions taken and planned for Recommendations 1(a) and 1(c) are reasonable and
no further response to those recommendations is necessary, subject to follow up.
In accordance with DOT Order 8000.1C, we request additional comments and
completion date milestones for Recommendation 1(b) and completion target dates
for Recommendations 2(a), 2(b), and 2(c) within 30 days.

We appreciate the cooperation and assistance of RSPA, Volpe, and O’Connor &
Drew P.C. representatives. If you have any questions concerning this report,
please call me at (202) 366-1992, or Theodore Alves, Assistant Inspector General
for Financial and Information Technology Audits, at (202) 366-1496.


                                       #
                                                                                  12




EXHIBIT A. OBJECTIVE, SCOPE, AND
METHODOLOGY
This audit was requested by Congressman Ernest J. Istook, Chairman,
Subcommittee on Transportation, Treasury and Independent Agencies, House
Committee on Appropriations. Congressman Istook requested that we determine:
(1) how Volpe’s role and functions have changed over the years and whether
current Volpe activities meet DOT’s needs, (2) if Volpe has the necessary
financial controls in place to assure its service fees are appropriate, and (3) DOT’s
role in overseeing Volpe and whether that role is adequate to ensure that Volpe
provides cost-effective services.

To address Congressman Istook’s request, we plan to issue three reports. This
report addresses whether Volpe has the necessary financial controls in place to
assure its service fees are appropriate. Another report will be issued to cover
Volpe’s role and function in the Department. The third report, which will be
issued later this year, will cover program management oversight.

The objective of this review was to evaluate Volpe’s FY 2002 operations to
determine whether the revenues and costs, accumulated by project and funded by
various agencies, are accurately reflected in the accounting records. As part of
this objective, we evaluated whether Volpe’s overhead rate development and
implementation, including its method of distributing overhead costs to projects,
were in accordance with generally accepted accounting principles. We expanded
the audit to cover FY 2003 financial operations because Volpe implemented a new
financial management and cost accounting system (Delphi and Oracle Projects) in
May 2003.

We contracted with O’Connor & Drew P.C. of Quincy, MA, to perform agreed-
upon procedures on Volpe’s controls, assets and liabilities, costs and revenues,
overhead rate development, and project reporting process for the fiscal year that
ended September 30, 2002. We reviewed the audit work to ensure that it complied
with applicable Government Auditing Standards.

We conducted work at the Volpe Center in Cambridge, MA, and DOT
Headquarters in Washington, DC. We conducted the audit from September 2003
through April 2004 and in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States.




Exhibit A. Objecti ve, Scope, and Methodolog y
                                                           13




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                  Title

  Terrence J. Letko                     Program Director

  Michael Weisz                         Project Manager

  Robert Anderson                       Senior Auditor

  Kathleen Huycke                       Editor




Exhibit B. Major Contributors to This Report
           APPENDIX I. MANAGEMENT COMMENTS                                                         14




           U.S. Department
                                                        Memorandum
           of Transportation

           Research and
           Special Programs
           Administration



Subject:    ACTION: Draft Report on the Volpe National                  Date:    July 19, 2004
            Transportation Systems Center Project No.
            04F3004F000

  From:     Samuel G. Bonasso                                        Reply to    DRP-1
            Deputy Administrator                                     Attn. Of:


    To:     Kenneth M. Mead
            Inspector General


             This memorandum responds to your Office’s Draft Report on the RSPA/Volpe National
             Transportation Systems Center (financial management), Project No 04F3004F000,
             dated May 14, 2004. I agree completely with your opening observation, "Because
             Volpe operates on a fee-for-service basis and thereby charges all of its work to its
             customers, it is imperative that it have a cost accounting and financial reporting system
             to collect costs by project and charge them to customers accurately." I am confident
             that implementation of the following actions in response to the Draft Report’s
             recommendations will further assure Volpe customers and stakeholders that the Volpe
             center’s overall financial practices are sound.       In this regard, I appreciate your
             inclusion, as an attachment, of the entire report submitted to you by O’Connor & Drew,
             Certified Public Accountants, which documents that Volpe's overall financial
             management practices are sound:

                   “Other than the issue raised in the “Cost Accounting System” section D (ii)
                   regarding fiscal year 2003 expenditures in the fiscal year 2002 overhead pool,
                   our review determined that the cost accounting system is capable of generating
                   adequate and reliable financial data, reconciliations are performed periodically
                   and provisional rates are adjusted to actual rates annually.”

             The Draft Report sets forth two sets of recommendations. One related to addressing
             Volpe’s decision to record $2.31 million of overhead costs in the year obligated, FY
             2002, rather than in the year the costs were actually incurred, FY2003. The second
             related to continued Volpe cooperation with the Oklahoma City Delphi Team (OKC
             Delphi Team) to complete the core financial reports for Volpe project managers and


           Appendix I. Management Comments
APPENDIX I. MANAGEMENT COMMENTS                                                        15

 customers. I agree with both sets of recommendations. RSPA/Volpe’s planned actions
 for each specific Office of Inspector General (OIG) recommendation follow:

OIG Recommendation 1(a)
Utilize the accrual basis of accounting for the cost accounting and financial management
systems and discontinue including subsequent year’s costs in the prior year’s overhead
pools.

Response:
Volpe’s goal is to implement this recommendation and change from Volpe’s 34-year
practice of obligation-based accounting to accrual-based accounting by August 2004 for
application to all FY 04 and future transactions. Volpe Center financial staff have
already initiated discussions with the OKC Delphi Team. If the necessary changes in
Delphi cannot be made by the end of August 2004, rather than jeopardize accurate fiscal-
year-end financial statements and a clean audit opinion for DOT, Volpe will defer the
changes until FY2005 and make any retroactive adjustments related to FY 2004 in FY
2005.

OIG Recommendation 1(b)
Compute the effect of including obligations in overhead costs for FYs 2002 and 2003 on
costs charged to customers. This includes removing the $2.31 million from the FY 2002
indirect cost pools, including the actual costs incurred in FY 2003 in the FY 2003
indirect cost pools, and then re-computing overhead rates for both years. Volpe then
must appropriately reimburse excess overhead charged to customers.

Response:
Volpe has discussed this recommendation with the OKC Delphi Team and submitted a
formal request for the necessary financial data from Delphi. When this request is
prioritized in the next Delphi Reports User Group meeting in July and an estimated
completion date is assigned, Volpe will prepare and supply to the OIG a corrective action
plan to reallocate the identified indirect costs from FY 02 to FY 03. There will be no net
change in the combined FY 02 and FY 03 total overhead charges.

OIG Recommendation 1(c)
Implement a corrective action plan with milestones to develop and implement policies
and a procedures manual for all managerial cost accounting activities, processes, and
procedures.

Response:
We agree that a procedures manual would be beneficial, and Volpe will develop one. In
fact, the soon-to-be-released DOT Financial Management Policies Handbook has set
aside Section 11 for Managerial Cost Accounting. Within 60 days of official issuance of
this guidance, Volpe will begin developing a procedures manual that conforms to the
DOT policies. In the interim, Volpe will begin formal documentation of the routines used
to facilitate Delphi’s calculation of FY 2004 indirect rates.




Appendix I. Management Comments
APPENDIX I. MANAGEMENT COMMENTS                                                      16

OIG Recommendation 2 (a)
Identify and develop reporting requirements that ensure that project status reports and
financial status reports comply with SFFAS (Statements of Federal Financial Accounting
Standards) Number 4, and provide sufficient information so users can clearly understand
the basis for the amounts charged reports should identify actual costs, in total and by
cost element.

Response:
Volpe will continue to work with OKC Delphi Team and OST’s Office of Financial
Management to complete the core financial status and project status reports currently
under development, and will furnish these report formats to the OIG. These reports will
continue to comply with SFFAS Number 4. On completion of the reports and our
remedial actions in response to this Draft Report, Volpe will hold customer information
meetings in DC on the Volpe Working Capital Fund, General Working Agreement,
Reimbursable Agreement, cash advance processes, and customer reports. Volpe also
plans to offer customers one-on-one meetings to review project data needs.

OIG Recommendation 2(b)
Determine whether standard or ad hoc Delphi reporting capabilities can meet these
requirements and develop the appropriate reports.

Response: As noted in the Draft Report: “Delphi has a number of standard reports that
would provide project managers with much but not all of the information currently
needed by customers and project managers.” (bold emphasis added). Volpe informed
the OKC Delphi Team of the complete information needed in the reports three years ago
when Delphi was first introduced. Since then, the OKC Delphi Team has intermittently
worked on this challenge. We think the OIG recommendation may help raise the OKC
Delphi Team priority for completion of these reports.

OIG Recommendation 2(c)
Ensure Volpe’s project managers, financial managers, and staff are provided the
necessary training and granted appropriate access to DELPHI so they can extract
standard and ad hoc reports via the internet and obtain the financial status of projects
when and in the format they need it.

Response:
Volpe is implementing a new business information system that will provide project
mangers with easy access to project financial and project management data. This system
will use Delphi financial data, milestones, project deliverables, performance indicators
and other critical data to support Earned Value Management and other tools for managing
complex projects.



cc:
Deputy Secretary
Chief of Staff


Appendix I. Management Comments
APPENDIX II. O’CONNOR & DREW REPORT    17




Appendix II. O’Connor & Dr ew Report
APPENDIX II. O’CONNOR & DREW REPORT    18




Appendix II. O’Connor & Dr ew Report
APPENDIX II. O’CONNOR & DREW REPORT    19




Appendix II. O’Connor & Dr ew Report
APPENDIX II. O’CONNOR & DREW REPORT    20




Appendix II. O’Connor & Dr ew Report
APPENDIX II. O’CONNOR & DREW REPORT    21




Appendix II. O’Connor & Dr ew Report
APPENDIX II. O’CONNOR & DREW REPORT    22




Appendix II. O’Connor & Dr ew Report
APPENDIX II. O’CONNOR & DREW REPORT    23




Appendix II. O’Connor & Dr ew Report
APPENDIX II. O’CONNOR & DREW REPORT    24




Appendix II. O’Connor & Dr ew Report
APPENDIX II. O’CONNOR & DREW REPORT    25




Appendix II. O’Connor & Dr ew Report
APPENDIX II. O’CONNOR & DREW REPORT    26




Appendix II. O’Connor & Dr ew Report
APPENDIX II. O’CONNOR & DREW REPORT    27




Appendix II. O’Connor & Dr ew Report
APPENDIX II. O’CONNOR & DREW REPORT    28




Appendix II. O’Connor & Dr ew Report
APPENDIX II. O’CONNOR & DREW REPORT    29




Appendix II. O’Connor & Dr ew Report
APPENDIX II. O’CONNOR & DREW REPORT    30




Appendix II. O’Connor & Dr ew Report
APPENDIX II. O’CONNOR & DREW REPORT    31




Appendix II. O’Connor & Dr ew Report
APPENDIX II. O’CONNOR & DREW REPORT    32




Appendix II. O’Connor & Dr ew Report
APPENDIX II. O’CONNOR & DREW REPORT    33




Appendix II. O’Connor & Dr ew Report
